No.

IN THE
Supreme Court of the United States

HEMY NEUMAN,
Petitioner,
Vv.
STATE OF GEORGIA,
Respondent.

PROOF OF SERVICE

I, Michael W. Tarleton, do swear or declare that on August 12, 2021, as required
by Supreme Court Rule 29, I have served the enclosed MOTION FoR LEAVE TO PRO-
CEED IN FORMA PAUPERIS and PETITION For A WriT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid.

 

The names and addresses of those served are:

Anna Green Cross Meghan Hill

(DeKalb County District Attorney) Office of the Attorney General
The Summerville Firm, LLC 40 Capitol Square SW

1226 Ponce de Leon Ave, NE Atlanta, GA 30334

Atlanta, GA 30306

I declare under penalty of perjury that the foregoing is tyue and correct.
Executed on August 12, 2021. ae

MICHAEL W. TARLETON
Counsel of Record

The Appellate Division, GPDC
270 Washington Street, #5198
Atlanta, Georgia 30303

(404) 739 5168
mtarleton@gapubdef.org
